WAIVER
SUPREME COURT OF THE UNITED STATES

20-6848
Dana Sylvester Whitley
v. R. Graham, Jr., Warden
Supreme Court Case No.

(Petitioner)

(Respondent)

I DO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one is requested
by the Court.
Please check the appropriate boxes:
□ Please enter my appearance as Counsel of Record for all respondents.
□ There are multiple respondents, and I do not represent all respondents. Please enter my
appearance as Counsel of Record for the following respondent(s):

□ I am a member of the Bar of the Supreme Court of the United States.
□ I am not presently a member of the Bar of this Court. Should a response be requested, the response
will be ﬁled by a Bar member.

Carrie J. Williams
2/18/21
Date:
Carrie J. Williams
(Type or print) Name
Signature

□ Mr.

□ Ms.

□ Mrs.

□ Miss

Office of the Attorney General
200 St. Paul Place
Address
Baltimore, Maryland
21202
City & State
Zip
cwilliams@oag.state.md.us
410-576-6422
Phone
Email
Firm

A COPY OF THIS FORM MUST BE SENT TO PETITIONER’S COUNSEL OR TO PETITIONER
IF PRO SE. PLEASE INDICATE BELOW THE NAME(S) OF THE RECIPIENT(S) OF A COPY
OF THIS FORM. NO ADDITIONAL CERTIFICATE OF SERVICE IS REQUIRED.
CC:

